Office of
INSPECTOR GENERAL
U.S. Department of the Interior




   Evaluation of Bureau of Land
  Management’s Oil and Gas Lease
         Auction Process
Report No. CR‐EV‐BLM‐0002‐2009                     August 2009 
                  United States Department of the Interior
                              OFFICE OF INSPECTOR GENERAL
                                   Washington , DC 20240
                                                                           AUG 2 6 2009


Memorandum

To:            Robert V. Abbey
               Director, Bureau of Land Management

From:          Mary L Kendall   '-y] ~;>(:-f,,~             dcJi:
               Acting Inspector Genera          I   /   /
                                          '.I
Subject:       Evaluation Report of Bureau of Land Management's Oil and Gas Lease Auction
               Process (Report No. CR-EV-BLM-0002-2009)

        This memorandum transmits our report detailing the results of our evaluation of the
Bureau of Land Management ' s (BLM) oil and gas lease auction process. Our review was
prompted by a highly publicized incident in which an individual who , in an act of environmental
protest, disrupted a BLM lease auction by bidding for parcels without the intent or ability to pay
for or develop the leases.

       We focused on BLM's implemented and proposed revised measures to its lease auction
process as a result of the incident and obtained information on other federal and state auction
processes to identify practices that could improve or enhance BLM's lease auction process.

        We found that BLM took swift action to initiate improvements to the lease auction
process after the incident by drafting an Instruction Memorandum with new measures designed
to reduce the likelihood of individuals paliicipating in auctions without the intent to complete
their purchase . Although the new measures should reduce the risks associated with bad-faith
bidders, we are recommending additional steps to further minimize the risks of fraudulent
bidders and improve the lease auction process.

       We ask that you inform us of your course of action within 30 days. Should you have any
questions about this report, please do not hesitate to contact me at 202-208-5745.

Attachment

cc:     Assistant Secretary, Land and Minerals Management
                                          INTRODUCTION

In December 2008, in an act of environmental protest, an individual exploited the Bureau
of Land Management's (BLM) oil and gas lease auction program by bidding for parcels
without the intent or ability to pay for or develop the leases. The individual won 14 parcels
totaling $1.8 million in lease revenue.

In April 2009, the individual was indicted by a federal grand jury for violation of the
Federal Onshore Oil and Gas Leasing Reform Act of 1987 for knowingly interfering with the
competitive bidding process and knowingly making a false and fraudulent statement when
he completed and signed a bidder registration form.

In response to the incident, we initiated an evaluation of BLM's lease auction process. We
concentrated our efforts on three main areas:

       •   assessing BLM's implemented and proposed changes to the lease auction process as
           a result of the incident;

       •   reviewing BLM's Internet lease auction pilot program; and

       •   obtaining information on other federal and state auction processes to identify
           practices that could improve or enhance BLM's lease auction process.

We conducted our evaluation work in accordance with the Quality Standards for
Inspections issued by the President's Council on Integrity and Efficiency.



                                          BACKGROUND

BLM's OIL AND GAS LEASING PROGRAM

The Mineral Leasing Act of 1920 (MLA), as amended, authorizes leasing of federal lands for
development of oil and gas resources. The MLA requires each BLM state office to conduct
quarterly oil and gas lease sales by oral bidding where eligible lands are available. It also
establishes the minimum bonus bid 1 of $2 per acre. Parcels unsold at the oral auctions are
available noncompetitively starting the day after the sale.

The Code of Federal Regulations (43 C.F.R. § 3120.5-2) requires winning bidders to pay the
first year's rental ($1.50 per acre), a processing fee ($140), and the minimum bonus bid ($2
per acre) the day of the lease sale. Any additional bonus over the $2 per acre is due within
10 working days of the sale; failure to make this payment will result in the forfeiture of the

1   Bonus bid refers to the minimum bid amount of $2 an acre and any amounts bid over the $2.

                                                       1
initial deposit and rejection of the bid. The only requirements outlined in the CFR for
bidder qualification are that the bidder must be a U.S. citizen or an alien stockholder in a
corporation organized under state or federal law, and 18 years of age or older.

The oral lease auction represents a small fraction of the entire leasing process, described in
Appendix 1. BLM's Division of Fluid Minerals manages the leasing program at the national
level, providing guidance to its state offices. BLM's "Oil and Gas Adjudication Handbook-
Competitive Leases" (H-3120-1) is the written guidance for conducting the lease sales.

BLM has received nearly $1.2 billion dollars in bonus bid revenue from the sale of over
14,000 leases from 2004 through 2008. 2 The majority of leases and the resulting revenue
come from the western states of New Mexico, Wyoming, Colorado, Utah, and Montana.


                                              WHAT WE FOUND

                                               We found that BLM did not view bid-walkers as a
                 • • •                         significant threat to the lease auction program and had
                                               few deterrents in place to limit the risk of occurrence.
    For the purpose of this evaluation,
                                               BLM's lease auctions are designed to maximize bidder
    individuals or companies defaulting
    on winning bids are referred to as         participation by providing easy access for prospective
    bid-walkers and separated into two         bidders. This open process results in a higher risk that
    categories: bad-faith and non-paying       individuals with hidden agendas may participate in the
    bidders.                                   auction and cause disruption.
    An individual or company that bids
    with ulterior motives and no intention     According to BLM's records, in the last 5 years, there
    of paying, exemplifies a bad-faith         were 35 bid-walkers who defaulted on 152 of the
    bidder.                                    approximately 14,000 parcels sold. We estimated the
    A non-paying bidder is an individual
                                               monetary loss3 to be $3.4 million which is less than 1
    or company that defaults without           percent of the nearly $1.2 billion in lease auction
    malfeasance; the most prevalent            revenue. Non-monetary considerations associated with
    reason cited was insufficientfunds.        bid-walkers include delays in issuing federal leases and
                                               in developing the Nation's energy resources, fairness to
    The effect of both bad-faith and non-
    paying bidders is the disruption of the    other bidding parties, and disruption of BLM's lease
    lease auction process.                     auction process.

                 • • •               To date, the occurrence of bad-faith bidders has been
                                     rare, with only two known cases in the last 5 years.
However, there is growing concern that lease auctions may become a forum for future
protests due to the publicity of the Utah incident.



2Alaska is governed by different laws and therefore excluded from the statistics.
3 Monetary impact to BLM reflects bonus bid revenue lost or gained upon resale and the loss of rental
revenue.

                                                         2
We found that prior to the Utah incident BLM did not have adequate measures to deter bid-
walkers from disrupting oil and gas lease auctions. Specifically:

   •   BLM did not publicize that there are criminal and civil penalties associated with the
       fraudulent actions of a bidder.

   •   BLM did not clarify the liability incurred by the winning bidder for the monies due
       the day of sale.

   •   BLM did not have a policy requiring verification of identification for lease bidders.

   •   BLM did not have a formalized billing and collection process for bid-walkers. BLM
       state offices were inconsistent in their efforts to collect unpaid amounts due on the
       day of sale.

   •   Some BLM state officials were not familiar with the BLM Handbook requirement to
       ban potential bidders who defaulted three times in a single state. Also, the
       Handbook was unclear about whether the three defaults were represented by
       parcels or by lease sales. We identified instances in which bidders were allowed to
       participate in subsequent sales after defaulting on more than three parcels.

   •   BLM did not track bid-walkers and, thus, did not implement the bid-walker ban as
       required in its Handbook.

BLM ACTIONS TO IMPROVE THE PROCESS

The Utah incident set in motion BLM's internal assessment of its auction process and
controls. BLM's Division of Fluid Minerals drafted an Instruction Memorandum (1M),
"Measures to Better Safeguard Competitive Oil and Gas Lease Auctions," planned to be
issued this summer. The draft 1M includes the following short-term measures.

   •   Requires BLM to centrally track bid-walkers and distribute reports to BLM state
       offices prior to lease sales.

   •   Requires changes to the pre-sale lease auction process to include: (1) verification of
       a government issued identification for all bidders, (2) prevention of persons or
       companies with an outstanding balance from registering to bid, and (3) clarification
       of the debt created by a winning bid in the opening oral remarks at lease auctions.

   •   Requires changes to the post-sale process including: (1) issuing a bill through BLM's
       Collection and Billing System to those individuals or companies that do not pay the
       amount of money due the day of the sale and (2) mandating rejection of any bid for
       which any payment is not paid as required.




                                              3
   •   Amends the Bidder Registration Form and the Notice of Competitive Oil and Gas
       Lease Sale to incorporate the changes above and to inform bidders of their
       responsibilities.

During the course of our evaluation, BLM state offices were directed by the Division of
Fluid Minerals to immediately implement the provisions in the draft 1M.

Although the above actions should reduce the risks associated with bid-walkers, the 1M did
not emphasize the criminal penalties associated with bad-faith bidding by specifically citing
imprisonment and fines, or include the citation and the language from 30 U.s.c. Section
195(a) and (b) in the Bidder Registration Form and the Notice of Competitive Oil and Gas
Lease Sale. This Section makes it unlawful to organize or participate in any scheme to
defeat provisions of the mineral leasing regulations punishable by a fine of not more than
$500,000, imprisonment of not more than 5 years, or both. Also, the 1M did not contain
provisions for banning repetitive bid-walkers.

Furthermore, the 1M does not provide the detailed procedures required to effectively
implement the short term measures. In order for the 1M to be effective, specific procedures
need to be developed and distributed throughout the Bureau, thereby providing guidance
to the field and consistency in implementation. For example, the 1M does not specify
acceptable forms of government issued identification and does not define the roles and
responsibilities related to the distribution and maintenance of the list of non-responsible
persons or companies.

In BLM's deliberation of proposed controls, requiring proof of financial capacity was
considered, but not included as a proposed measure. BLM cited staffing constraints and
costs exceeding the benefits as reasons for not implementing proof of financial capacity.
We agree that requiring proof of financial capacity may not be warranted at this time;
however, it may need to be considered in the future if the occurrence of bid-walkers
increases.

The draft 1M clarifies that a winning bid creates a debt to the U.S. for the amount due the
day of sale. BLM plans to recommend to the Department a proposed regulation to clearly
establish that a winning bid creates a debt for the entire amount of the bonus bid. This
requirement would not only increase the level of commitment required of bidders, but also
the penalty for defaulting, thereby further reducing the risk of bid-walkers.

INTERNET AUCTION PROCESS

In the Fiscal Year 2008 Consolidated Appropriations Act, Congress directed BLM to pilot an
Internet lease auction as an alternative to the oral auctions required by the MLA. BLM's
Colorado State Office was selected as the location for the pilot. In September 2009,38
parcels will be available for bid on BLM's Oil and Gas Lease Internet Auction Pilot System.




                                             4
Bidders will be allowed to pre-register from 60 days before the auction to the day of
auction. Potential bidders will have to submit a credit card to validate identity only. A
deposit or credit card authorization will not be required.

The Internet leasing auction presents potential benefits such as increased bidder
participation and accessibility; savings to bidders; electronic verification of disqualified
bidders; additional identification and financial verification through pre-registration and
pre-certification; the potential for nationwide bidding instead of individual state auctions;
and the capture of lease auction data for analysis, planning, and reporting.

The Internet leasing auction, however, also presents new risks. For example, this method
allows for potential anonymous participation in the auction process increasing the risk of
fraudulent bidding. Even though a credit card will be required for bidders to pre-register
in order to verify identity, it would not preclude an individual from using a stolen or
unauthorized credit card. As with any Internet accessible system, the risk for cyber attacks
also exists. BLM reports that the pilot system will comply with all aspects of the National
Institute of Standards and Technology's Special Publications and Certification and
Accreditation of Federal Information Systems. We did not attempt to validate this
assertion.

The Internet leasing auction is a promising prospect for BLM in the evolution of its oil and
gas leasing process. For BLM to fully implement the Internet leasing auction concept,
however, Congress will need to amend the MLA to eliminate the requirement for oral
auctions.

AUCTION PROCESS COMPARISON

We obtained information on other federal and state lease programs to identify promising
auction practices and bidding methods. We reviewed state oil and gas lease auction
programs that were similar to BLM's. Specifically, we selected New Mexico, Colorado, and
Wyoming. We also considered other programs that conduct auctions of natural resources
or other products including BLM's timber, coal, and geothermal programs; Minerals
Management Service's (MMS) Offshore Energy and Minerals Management (MMS-OEMM) oil
and gas program; Federal Communications Commission (FCC); and MMS' Royalty-In-Kind
(RIK) program (for pre-qualification only). See Appendix 2 for a summary of the leasing
practices identified.

The following are several processes identified that are different from BLM's current lease
auction program:

   •   Sealed Bidding. The State of New Mexico, MMS-OEMM, BLM Alaska, and BLM coal
       and timber programs use the sealed bid method. A representative from the State of
       New Mexico said that the bonus income generated is higher than when holding an
       oral auction. All the agencies above required a certain percentage of the bid as an



                                              5
    upfront bid deposit. Due to the oral auction requirements in the MLA, BLM is not
    currently allowed to auction parcels with this method.

•   Pre-registration. MMS-OEMM requires a certified statement indicating the state in
    which the company is registered, if it is authorized to hold a mineral lease, and a list
    of authorized officers in order to submit bids. Once approved, MMS will issue a
    qualification approval letter containing a unique MMS qualification number that can
    be used on all future lease auction sales. FCC also requires pre-registration of
    potential bidders.

•   Internet Auction. Internet-based auctions offer the potential for increased
    participation given the ease of accessibility. The FCC is the only agency we found
    conducting auctions via the Internet. BLM has initiated a pilot program to develop
    and test the feasibility of conducting future auctions via the Internet.

•   Bid-walker Ban. The State of Wyoming will ban a bid-walker from auction
    participation for 1 year. If the party participates after 1 year, Wyoming will require
    full payment with certified funds the day of the sale. Although Wyoming has an
    auction law allowing it to sue for the money due, a Wyoming official stated that
    barring the bidder has a greater, immediate impact.

•   Amount Due on the Day of the Sale. The States of New Mexico and Colorado
    require full payment the day of the sale. Increasing the amount due on the day of
    sale is more consistent with similar oil and gas leasing programs. This also
    increases the penalty for those individuals or companies who default on winning
    bids.

•   Bid Deposits. MMS-OEMM, BLM coal, BLM Alaska, and the State of New Mexico
    require partial or full payment of the bonus bid with the submission of the bid.
    These organizations all conduct sealed or written bid auctions. None of the oral
    auctions reviewed required a bid deposit.

•   Pre-qualify Bidders. RIK and FCC are the only organizations we identified that
    verified financial capacity prior to the lease auction. The FCC expends a large effort
    in pre-qualifying bidders to determine the bidder's financial capacity. FCC and RIK
    pre-qualification, and the absence of such requirements in oil and gas leasing
    programs, suggests that pre-qualification may be more appropriate for more
    expensive lease acquisitions. BLM onshore lease parcels can be as small as 40 acres,
    for which a bidder can acquire the lease for a minimum of $280.

•   Oral Auction Initiated with Written Bid. BLM timber auction sales require the
    bidders to complete a written bid and submit a certified funds deposit of 10 percent
    of the written bid. The written bid has to be at least the minimum amount
    established by BLM. The oral auction begins with the highest written bid. The
    highest oral bidder will be the successful bidder.

                                           6
Through our evaluation, we concluded that other auction methods such as sealed bids and
Internet-based, could provide BLM some benefits such as increased revenues or
streamlined processes. BLM is precluded, however, from employing alternative auction
methods until the oral requirement is removed from the MLA.

Implementing BLM's short term measures outlined in the 1M, as well as our
recommendations outlined below, may not completely eliminate bid-walkers, but will add
extra levels of control to minimize the risk of occurrence.

The possibility for increased bad-faith participants in BLM's lease auction process may be
affected by the outcome of the pending prosecution of the individual in Utah. If the
individual is convicted, the severity of the penalties associated with that conviction will be
crucial to reinforcing the implemented measures and serve as a major deterrent to future
bad-faith bidders. If he is acquitted, the absence of consequences for such actions may
encourage similar incidents such as the one in Utah and require BLM to reassess its
controls.



                              RECOMMENDATIONS

We recommend the Director, BLM:

   1. Amend the Draft 1M to include the following provisions:

       a) Emphasize the criminal penalties associated with the statutes cited in the Bidder
          Registration Form and the Notice of Competitive Oil and Gas Lease Sale by
          specifically stating prison and monetary penalties.

       b) Include the citation and the language from 30 U.s.c. Section 195(a) and (b) in the
          Bidder Registration Form and the Notice of Competitive Oil and Gas Lease Sale
          which makes it unlawful to organize or participate in any scheme to defeat
          provisions of the mineral leasing regulations punishable by a fine of not more
          than $500,000, imprisonment of not more than 5 years, or both.

       c) Establish a nationwide ban that prohibits a person or company from all lease
          sales after repetitive defaults. This would expand the existing statewide ban
          included in the BLM Handbook (H-3120-1, Competitive Leases) which states,
          "Any entity who forfeits the right of issuance of a lease (failure to submit the
          remaining monies due) totaling three times in the (Name) State Office, shall be
          prohibited from bidding at any future sale in this State." In developing a ban
          policy, BLM should (1) clarify in its nationwide ban whether three defaults
          represents sales or parcels; (2) expand the ban to include default on monies due
          the day of sale; and (3) consider a ban for a certain period of time for a single
          default, such as the State of Wyoming's 1 year bid-walker ban.

                                               7
2. Develop and distribute supplemental guidance on implementing the 1M throughout
   the Bureau and update the BLM Handbook (H-3120-1, Competitive Leases) to
   incorporate the new guidance as soon as possible.

3. If BLM does not implement the policy to make the entire bonus bid a debt to the U.S.,
   BLM should increase the amount due on the day of sale from $2 per acre to a
   specified percentage (e.g. 20 percent) of the bonus bid to be determined by BLM.

4. Conduct an analysis to determine which auction process is best suited for oil and gas
   leases including oral, sealed, and Internet bidding.

5. Work with Congress to revise or amend the Mineral Leasing Act of 1920 to eliminate
   the requirement for quarterly oral auctions and allow for alternative auction
   processes, e.g., sealed bid or Internet.




                                         8
                                                                                  Appendi x 1



BLM OIL AND GAS LEASE AUCTION PROCESS

            EXPRESSIONS OF INTEREST: Parcels can be nominated from expressions
            of interest by private entities or by BLM under specia l conditions. Also,
            parcels can be reintroduced from deferred lands list (parcels put on hold
            pending further evaluation for compliance wit h Reso urce Management
            Plan (RMP) or ongoing protest) .




            ADJUDICATION : The BLM state office identifies the parcel is available for
            leasing based on the RMP in place. Potential parcels are forwarded to
            respective field offices for review by an interdisciplinary team, including
            the surface management agency. Field office issues a recommendation
            for leasi ng and DNA (Determination of NEPA Adequacy) .




             PREPARATION : BLM state offices review recommendations from field
             offices and notes the stipulations recommended for each parcel. A list
             of proposed parcels is developed 45 days prior to the scheduled lease
             sale. This allows the requisite t ime to allow prot ests and resolve any
             issues. Addendums are regularly issued to inform bidders of changes
             leading up to t he auction . Unresolved prot ests may result in deferring
             the parcels for future potentia l sale (deferred lands list).



             LEASE SALE: Lease sales are co nducted ora lly on a quart erly sc hedule as
             required by statutes. Bidders must be American ci t izens of legal age (18)
             to bid on leases . A bidder registration form is used to identify eligible
             bidders at lease auction - t here are no fi nancial requ irements . Winning
             bidders must submit payment for mi nimum bonus ($2 per acre), 1st
             year's rental , and $140 administrative fee the day of the sale. Additional
             bonus payment is due within 10 business days. Leases not awarded at
             auction are available non-competitive ly the day after the sale for up to 2
             years.



             LEASE ISSUANCE : Resolution of appea ls / protests and payment are
             required prior to issuance of the lease. Winning bid and f ull paymen t
             does not result in effective lease - must be issued by the authorizing
             officer. Leases withdrawn after payment w ill result in refund t o the
             winning bidder. Subsequent to issuance of lease, the lessee obtains t he
             right to explore and drill for, extract, remove, and dispose of deposits of
             oil and gas found on t he lease . Leases are va lid for 10 years or as long as
             there is at least one produci ng well.



                           9
                                                                                                                                                          Appendix 2
                                                          COMPARISON OF AUCTION PRACTICES

                            How Often      Financial         Financial     Required to
              Type of      are Auctions       Pre-         Requirement    Register Before                         Amount Due
  Entity      Auction          Held       Qualification       to Bid        Day of Sale                            Day of Sale              Remainder Due

                                                                                                               $1.50/acre rent, $2
   BLM
                Oral        Quarterly          No              No               No          Yes         No    minimum bonus, and           10 working days          No
 Onshore
                                                                                                              $140 processing fee
-----------------------------------------------------------------------------------------------------------------------------------
                                                                     Other Onshore Oil & Gas Agencies
                                                                                                               1/5 of sealed bonus      15 days after receipt of
  BLM AK       Sealed      Once/2-yrs          No              No              Yes          No          Yes                                                         No
                                                                                                                        bid                    the lease
  State of                                                                                                    1st year rental, bonus,
                Oral         Monthly           No              No               No          Yes         No                               Total due day of sale      No
    CO                                                                                                         and processing fee
  State of    Sealed/                                                                                            Bonus and $30
                             Monthly           No              No              Yes          No          Yes                              Total due day of sale      No
    NM         Oral                                                                                              application fee
                                                                                                               $l/Acre min bonus,
  State of                                                                                                     $l/acre rental, filing     10 days from date of
                Oral        3 Times/Yr         No              No               No          Yes         Yes                                                         No
    WY                                                                                                         fee, and $0.12/Acre                sale
                                                                                                                  advertising fee

                                                                           Other 001 Programs
              Sealed/
 BLM Coal                     Varies           No              No               No          Yes         Yes         1/5 of bid           4-annual installments      No
             Application
                                                                                                                                        20% due end of 1st year;
   BLM        Sealed/                                                                                                                     40% end of 2nd year;
                              Varies           No              No               No          Yes         Yes   10% of appraisal price                                Yes
  Timber       Oral                                                                                                                         balance prior to
                                                                                                                                         expiration of contract
   BLM                                                                                                        20% of bonus bid, 1st
                            Every two                                                                                                    15 calendar days after
 Geotherm       Oral                           No              No               No          Yes         Yes     year's rental, and                                  No
                              years                                                                                                             the sale
    al                                                                                                           processing fee
  MS RIK          *             *              Yes             Yes              Yes          *           *               *                          *                  *
                                                                                                                                        Remaining 4/5 and total
  MMS-
               Sealed         Varies           No              No               Yes         N/A         Yes     1/5 of cash bonus        first year's rental due       No
  OEMM
                                                                                                                                        within a prescribed time.




    *For MMS-RIK, we only obtained information regarding pre-qualification.
                                                                                      10
                                      


        Report Fraud, Waste, Abuse,   
           and Mismanagement
                                        
                 Fraud, waste, and abuse in government 
                 concern everyone: Office of Inspector  
                                        
                 General staff, Departmental employees, 
                   and the general public.  We actively 
                 solicit allegations of any inefficient and 
                   wastef ul practices, fraud, and abuse 
                 related to Departmental or Insular Area 
                programs and operations.  You can report
                     allegations to us in several ways.  
                                      
                                      
                                          
                                      
                                      
    By  Mail :            U.S. Department of the Interior  
                          Office of Inspector General  
                          Mail Stop 4428 MIB  
                          1849 C Street, NW  
                          Washington, D.C. 20240  
     
    By Phone  :           24‐Hour Toll Free               800‐424‐5081  
                          Washington Metro Area           703‐487‐5435  
     
    By Fax:               703‐487‐5402
     
    By Internet :         www. doioig.gov /hotline
 
                                                                            
